           FEDERAL HOUSING FINANCE AGENCY
             OFFICE OF INSPECTOR GENERAL



            Clifton Gunderson LLP’s Independent
         Audit of the Federal Housing Finance Agency’s
             Information Security Program - 2011




Audit Report: AUD-2011-002                Dated: September 29, 2011
                  Clifton Gunderson LLP’s Independent Audit of the Federal Housing
                         Finance Agency’s Information Security Program - 2011
Why FHFA-OIG Contracted for Audit                                      What Clifton Gunderson LLP Found (See Appendix A of
The Federal Information Security Management Act of 2002 (FISMA)        this Report)
requires agencies to develop, document, and implement agency-          FHFA generally has a sound risk management framework for its
wide information security programs to protect their information and    information security program. However, information security practices
information systems, including those provided or managed by            were not fully effective to preserve the confidentiality, integrity, and
another agency, contractor, or other source. Additionally, FISMA       availability of FHFA’s information and information systems, potentially
requires agencies to undergo an annual independent evaluation of       exposing FHFA’s information resources to unauthorized access, use,
their information security programs and practices and an assessment    disclosure, disruption, modification, or destruction.
of compliance with FISMA. Moreover, FISMA requires the National
                                                                       Although FHFA’s information security program had a number of
Institute of Standards and Technology (NIST) to issue standards and
                                                                       strengths, including but not limited to its information system security
guidelines for Federal information and systems including minimum
                                                                       training, system-level planning, risk assessment, access authorization,
security requirements. NIST has defined an overall information
                                                                       and continuous control monitoring, the audit identified security practices
security risk management framework.
                                                                       that can be improved. Specifically, FHFA had not:
Additionally, the Office of Management and Budget (OMB) has
issued guidance related to information security including plans of       • Finalized, disseminated, and implemented a NIST-recommended
action and milestones (POA&Ms) for addressing findings from                organization-wide information security program plan that defines
security control assessments, security impact analyses, and                such key requirements as security-related roles and responsibilities
continuous monitoring activities. POA&Ms provide a roadmap for             and security program controls.
continuous agency security improvement and assist agency officials       • Updated the Agency’s policies and procedures to address
to prioritize corrective action and resource allocation.                   completely all of the NIST-recommended components within the
                                                                           control families applicable to the FHFA information system
The Federal Housing Finance Agency (FHFA) Office of Inspector              environment. For example, key controls in areas such as access
General (FHFA-OIG) contracted with Clifton Gunderson LLP (CG)              control, configuration management, contingency planning, and
to conduct a performance audit to fulfill its FISMA responsibilities       incident handling were not fully addressed by FHFA.
for an annual independent evaluation of FHFA’s security program.
                                                                         • Developed, disseminated, and implemented an agency-wide
The objective of the audit was to evaluate the effectiveness of
                                                                           information categorization policy and methodology. FHFA had
FHFA’s information security program and practices and its
                                                                           categorized its information systems without categorizing the
compliance with FISMA and related information security policies,
                                                                           information used by those systems. NIST describes controls
procedures, standards, and guidelines.
                                                                           related to security categorization, which provides a basis for
What FHFA-OIG Recommends                                                   selecting and implementing controls.
FHFA-OIG adopted CG’s findings and recommendations. The audit            • Implemented adequate procedures for tracking and monitoring
report makes five recommendations to FHFA to strengthen its                correction of weaknesses or deficiencies through POA&Ms. As
information security program: (1) finalize the agency-wide                 defined by NIST, the plans should identify tasks needing to be
information security program plan; (2) update policies and                 accomplished, resource requirements, milestones for meeting
procedures to address all NIST requirements and recommendations            tasks, and completion dates for milestones.
applicable to the FHFA information security environment; (3)             • Implemented adequate procedures for ensuring remediation of
develop and implement an information categorization policy and             weaknesses noted in network vulnerability assessments.
methodology; (4) establish a process to monitor compliance with            Numerous vulnerabilities identified during these assessments were
procedures for timely completion of POA&Ms; and (5) track and              not tracked and monitored to completion.
monitor remediation actions to address weaknesses identified in        Addressing these control deficiencies in information security practices
network vulnerability assessments.                                     will strengthen FHFA’s information security program and contribute to
In response to the findings and recommendations, FHFA provided         ongoing efforts to achieve reasonable assurance of adequate security
written comments, dated September 19, 2011. The Agency agreed          over information resources.
with the recommendations. The complete text of the written
comments can be found in Appendix B of this report.

Audit Report: AUD-2011-002                                                                                 Dated: September 29, 2011
TABLE OF CONTENTS
TABLE OF CONTENTS ..................................................................................................................... iii

ABBREVIATIONS ............................................................................................................................. iv

PREFACE .......................................................................................................................................... v

APPENDIX A .................................................................................................................................... vi

       Clifton Gunderson LLP’s Final Audit Report Entitled, Independent Audit of the Federal Housing Finance
       Agency’s Information Security Program - 2011

APPENDIX B ................................................................................................................................... vii

       FHFA’s Comments to FHFA-OIG’s Draft Report

APPENDIX C ................................................................................................................................... xii

       FHFA-OIG’s Response to FHFA’s Comments

APPENDIX D .................................................................................................................................. xiii

       Summary of Management’s Comments on the Recommendations

ADDITIONAL INFORMATION AND COPIES .................................................................................... xiv




         Federal Housing Finance Agency Office of Inspector General • AUD-2011-002 • September 29, 2011
                                                                        iii
ABBREVIATIONS
CG ........................................................................................................................ Clifton Gunderson
C&A ................................................................................................. Certification and Accreditation
CIO ........................................................................................................... Chief Information Officer
CISO .......................................................................................... Chief Information Security Officer
Fannie Mae......................................................................... Federal National Mortgage Association
FHFA ........................................................................................... Federal Housing Finance Agency
FHFA-OIG ...................................... Federal Housing Finance Agency Office of Inspector General
FHLBanks ...............................................................................................Federal Home Loan Banks
Freddie Mac .................................................................. Federal Home Loan Mortgage Corporation
FIPS................................................................................ Federal Information Processing Standards
FISMA ...................................................... Federal Information Security Management Act of 2002
GSS ............................................................................................................ General Support System
GAGAS ......................................................... Generally Accepted Government Auditing Standards
HERA.......................................................................Housing and Economic Recovery Act of 2008
IT ................................................................................................................ Information Technology
NIST ....................................................................... National Institute of Standards and Technology
OMB .......................................................................................... Office of Management and Budget
POA&M ............................................................................................ Plan of Action and Milestones
RMF .................................................................................................. Risk Management Framework




         Federal Housing Finance Agency Office of Inspector General • AUD-2011-002 • September 29, 2011
                                                                     iv
                                    Federal Housing Finance Agency

                                       Office of Inspector General

                                              Washington, DC




                                             PREFACE
FHFA-OIG was established by the Housing and Economic Recovery Act of 2008 (HERA), 1
which amended the Inspector General Act of 1978. 2 FHFA-OIG is authorized to conduct audits,
investigations, and other activities of the programs and operations of FHFA; to recommend
policies that promote economy and efficiency in the administration of such programs and
operations; and to prevent and detect fraud and abuse in them. This is one in a series of audits,
evaluations, and special reports published as part of FHFA-OIG’s oversight responsibilities to
promote economy, effectiveness, and efficiency in the administration of FHFA’s programs.

The objective of this performance audit was to evaluate FHFA’s information security program
and practices, including FHFA’s compliance with the FISMA and related information security
policies, procedures, standards, and guidelines. FHFA-OIG contracted with CG to conduct this
statutorily required audit. CG’s audit report is included in Appendix A of this report.

CG’s audit report makes five recommendations to FHFA to assist in strengthening its
information security program. FHFA-OIG adopts these recommendations and believes they will
help the Agency achieve more economical, effective, and efficient operations. FHFA-OIG
appreciates the assistance of all those who contributed to the audit.

This report has been distributed to Congress, OMB, and others and will be posted on FHFA-
OIG’s website, www.fhfaoig.gov/.




Russell A. Rau
Deputy Inspector General for Audits




1
    Public Law No. 110-289.
2
    Public Law No. 95-452.

         Federal Housing Finance Agency Office of Inspector General • AUD-2011-002 • September 29, 2011
                                                       v
APPENDIX A
Clifton Gunderson LLP’s Independent Audit of the Federal Housing Finance Agency’s
Information Security Program – 2011, pages 1 – 38.




     Federal Housing Finance Agency Office of Inspector General • AUD-2011-002 • September 29, 2011
                                                   vi
                                                            t 

A1 

                           Clifton Gunderson LLP’s Independent

                       Audit of the Federal Housing Finance Agency’s

                            Information Security Program - 2011




                                      Prepared for the

                              Federal Housing Finance Agency

                                Office of Inspector General



                                    September 29, 2011





4250 N. Fairfax Drive 
Suite 1020 
Arlington, Virginia 22203 
tel:  571­227­9500 
fax: 571­227­9552 
www.cliftoncpa.com 
                                                             Table of Contents


Executive Summary ................................................................................................................................... 3
Background ................................................................................................................................................. 6
   Federal Information Security Management Act ................................................................................. 6
   NIST Security Standards and Guidelines........................................................................................... 7
   NIST Risk Management Framework ................................................................................................... 9
   FHFA Systems Environment .............................................................................................................. 10
   FHFA Information System Security Program................................................................................... 12
       Organization...................................................................................................................................... 12
       Risk Management ............................................................................................................................ 12
       Information Security Policies and Procedures............................................................................. 13
       Security Awareness, Training, and Education ............................................................................. 14
       Incident Response ........................................................................................................................... 14
       Configuration Management ............................................................................................................ 14
       Contingency Planning...................................................................................................................... 14
       Security Performance Measurement............................................................................................. 15
Results of Audit......................................................................................................................................... 16
   Overview................................................................................................................................................ 16
   1.	FHFA Needs to Document an Agency-Wide Information Security Program Plan................. 18
   2.	 FHFA Needs to Update Its Information Security Policies and Procedures to Address all
      Applicable NIST 800-53 Rev. 3 Components.............................................................................. 20
   3.	FHFA Needs to Develop an Agency-Wide Information Categorization Policy and
      Methodology ..................................................................................................................................... 23
   4.	FHFA Needs to Strengthen Tracking and Monitoring of Weaknesses and Deficiencies in
      the Plan of Action and Milestones ................................................................................................. 25
   5. FHFA Needs to Strengthen Remediation of Vulnerability Assessment Weaknesses .......... 28
Appendix I – Objective, Scope and Methodology ............................................................................... 31
Appendix II – Summary of Controls Tested ......................................................................................... 35




                                                                              2
Executive Summary

September 29, 2011



Honorable Steve A. Linick
Inspector General
Federal Housing Finance Agency
1625 Eye Street, NW
Washington, DC 20006

Dear Mr. Linick:

The Federal Information Security Management Act of 2002 (FISMA) requires agencies
to develop, document, and implement an agency-wide information security program to
protect their information and information systems, including those provided or managed
by another agency, contractor, or other source. Additionally, FISMA requires agencies
to undergo an annual independent evaluation of the agency’s information security
programs and practices and an assessment of compliance with the requirements of the
Act. The Federal Housing Finance Agency (FHFA) Office of Inspector General (FHFA­
OIG) contracted with Clifton Gunderson (CG) to conduct a performance audit of the
FHFA’s information security program and practices related to FISMA. We are pleased
to provide the Fiscal Year (FY) 2011 FISMA CG Independent Audit Report, detailing the
results of our review of FHFA’s information security program.

The objective of this performance audit was to evaluate the effectiveness of FHFA’s
information security program and practices, including FHFA’s compliance with FISMA
and related information security policies, procedures, standards and guidelines. The
FHFA-OIG’s approach for the FY 2011 FISMA audit was a programmatic review of
FHFA’s governance structure related to the implementation and monitoring of FISMA
requirements, and how FHFA has applied the National Institute of Standards and
Technology’s (NIST’s) Risk Management Framework (RMF) for managing security
throughout the lifecycle of their information systems. The audit included a review of the
FHFA’s Office of the Chief Information Officer’s (CIO’s) oversight role related to the
implementation and monitoring of FISMA requirements, as well as the review of a
selection of security controls within each of the RMF phases for a sample of information
systems, as required by FISMA. The controls assessed include the following NIST
Special Publication (SP) 800-53 Rev. 3, Recommended Security Controls for Federal
Information Systems and Organizations (NIST SP 800-53 Rev.3), control families:
Planning (PL), Risk Assessment (RA) and Security Assessment and Authorization (CA).
Our audit was performed in accordance with Generally Accepted Government Auditing
Standards (GAGAS).

We found that FHFA generally has a sound RMF for its information security program. In
particular, strengths of the program included training, system-level security planning,
risk assessment, authorization of system connectivity, and continuous monitoring of


                                           3
security controls. However, information security practices were not fully effective to
preserve the confidentiality, integrity and availability of FHFA’s information and
information systems, potentially exposing them to unauthorized access, use, disclosure,
disruption, modification, or destruction. CG does not consider the deficiencies noted as
a significant deficiency under FISMA. 1 However, CG concluded collectively that the
deficiencies are significant in the context of the audit objective as defined for
performance audits under GAGAS.

For example, the audit identified a number of FHFA’s security practices that can be
improved. Specifically, FHFA had not:

      ⎯	 Finalized, disseminated, and implemented an organization-wide information
         security program plan.
      ⎯	 Updated the Agency’s information system policies and procedures to completely
         address all of the components within the control families from NIST SP 800-53
         Rev. 3 applicable to the FHFA information system environment.
      ⎯	 Developed, disseminated, and implemented an agency-wide information
         categorization policy and methodology.
      ⎯	 Implemented adequate procedures for tracking and monitoring weaknesses or
         deficiencies through Plan of Action and Milestones (POA&M).
      ⎯	 Implemented adequate procedures for tracking and monitoring remediation of
         weaknesses noted from network vulnerability scans.

Addressing these control deficiencies in information security practices will strengthen
FHFA’s information security program and contribute to ongoing efforts to achieve
reasonable assurance of adequate security over information resources.

FHFA’s information security program also had a number of strengths, including but not
limited to the following:

      ⎯	 Providing initial security awareness training to new employees and annual
         refresher training as well as security specific role based training for FHFA
         security staff.
      ⎯	 Developing security plans for individual information systems that describe the
         security controls in place or planned for meeting security requirements and
         assessing the security controls in the information system to determine the extent
         to which the controls are implemented correctly, operating as intended, and
         producing the desired outcome with respect to meeting the security requirements
         for the system.
      ⎯	 Conducting an assessment of risk, including the likelihood and magnitude of
         harm, from the unauthorized access, use, disclosure, disruption, modification, or

1
    See page 33 in this report for the definition of significant deficiency under FISMA.


                                                        4
      destruction of the information system and the information it processes, stores or
      transmits, and documenting risk assessment results in a risk assessment report.
   ⎯	 Authorizing connections from the information system to other information
      systems outside of the authorization boundary through the use of Interconnection
      Security Agreements.
   ⎯	 Establishing a continuous monitoring strategy and implementing a continuous
      monitoring program that includes ongoing security control assessments and
      reporting the security state of the information system to appropriate
      organizational officials.
This report makes five recommendations to assist FHFA in strengthening its information
security program.

This performance audit did not constitute an audit of financial statements in accordance
with GAGAS. CG was not engaged to, and did not, render an opinion on the FHFA’s
internal controls over financial reporting or financial management systems.
Furthermore, the projection of any conclusions, based on our findings, to future periods
is subject to the risk that controls may become inadequate because of changes in
conditions, or because compliance with controls may deteriorate.

Sincerely,

CLIFTON GUNDERSON LLP


a1 
Arlington, Virginia
September 29, 2011




                                           5
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -



Background

On July 30, 2008, FHFA was established by the Housing and Economic and Recovery
Act of 2008 (HERA), Public Law No. 110-289. Specifically, HERA abolished two
existing Federal agencies, the Office of Federal Housing Enterprise Oversight and the
Federal Housing Finance Board, and in their place created the FHFA to regulate the
Federal National Mortgage Association (Fannie Mae), the Federal Home Loan
Mortgage Corporation (Freddie Mac), the 12 Federal Home Loan Banks (FHLBanks),
and the Office of Finance. FHFA is an independent Federal agency, with a Director,
appointed by the President and confirmed by the U.S. Senate. Its mission is to provide
effective supervision, regulation, and housing mission oversight of Fannie Mae, Freddie
Mac and the FHLBanks. FHFA is a non-appropriated, non-apportioned agency that
draws its financial resources from assessments on Fannie Mae, Freddie Mac, and the
12 FHLBanks. The Agency has a $201 million budget for fiscal year 2011 and a staff of
598.2

Federal Information Security Management Act

The Federal Information Security Management Act of 2002 (FISMA) was enacted into
law as Title III of the E-Government Act of 2002 (Public Law No. 107-347, December
17, 2002). Key requirements of FISMA include:

    ⎯	 The establishment of an agency-wide information security program to provide
       information security for the information and information systems that support the
       operations and assets of the agency, including those provided or managed by
       another agency, contractor, or other source;
    ⎯	 An annual independent evaluation of the agency’s information security programs
       and practices; and
    ⎯	 An assessment of compliance with the requirements of the Act.

In addition, FISMA requires Federal agencies to implement the following:

    ⎯	 Periodic risk assessments;
    ⎯	 Information security policies, procedures, standards, and guidelines;
    ⎯	 Delegation of authority to the CIO to ensure compliance with policy;
    ⎯	 Security awareness training programs;
    ⎯	 Periodic testing and evaluation of the effectiveness of security policies,
       procedures, and practices to be done no less than annually;
    ⎯	 Processes to manage remedial actions for addressing deficiencies;

2
 The Appendix, Other Independent Agencies, Budget of the United States Government, Fiscal Year
2012, http://www.whitehouse.gov/sites/default/files/omb/budget/fy2012/assets/oia.pdf, pp. 1239-1241.


                                                  6
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


   ⎯	 Procedures for detecting, reporting, and responding to security incidents;
   ⎯	 Plans to ensure continuity of operations; and
   ⎯	 Annual reporting on the adequacy and effectiveness of the information security
      program.

The Office of Management and Budget (OMB) is responsible for reporting to Congress
a summary of the results of agency compliance with FISMA requirements. OMB’s
principal written statement of government policy regarding information security is OMB
Circular No. A-130, Management of Federal Information Resources, Appendix III,
Security of Federal Automated Information Resources (OMB Circular A-130, Appendix
III), dated November 28, 2000, which establishes a minimum set of controls to be
included in Federal automated information security programs. In particular, Appendix III
of OMB Circular A-130 defines adequate security as security commensurate with the
risk and magnitude of the harm resulting from loss, misuse, or unauthorized access to
or modification of information. This includes assuring that systems and applications
used by the agency operate effectively and provide appropriate confidentiality, integrity,
and availability, through the use of cost-effective management, personnel, operational,
and technical controls.

Additionally, OMB has issued guidance related to information security with regard to
plans of action and milestones (POA&Ms) for addressing findings from security control
assessments, security impact analyses, and continuous monitoring activities. Per OMB
Memoranda M-02-01, Guidance for Preparing and Submitting Security Plans of Action
and Milestones, POA&Ms provide a roadmap for continuous agency security
improvement and assist agency officials with prioritizing corrective action and resource
allocation.

NIST Security Standards and Guidelines

FISMA requires NIST to provide standards and guidelines pertaining to Federal
information systems.     Standards prescribed are to include information security
standards that provide minimum information security requirements and are otherwise
necessary to improve the security of Federal information and information systems.
FISMA requires that Federal agencies comply with Federal Information Processing
Standards (FIPS) issued by NIST. In addition, NIST develops and issues Special
Publications (SPs) as recommendations and guidance documents. FIPS Publication
(PUB) 200, Minimum Security Requirements for Federal Information and Information
Systems (FIPS PUB 200), mandates the use of NIST SP 800-53 Rev. 3. The purpose
of NIST SP 800-53 Rev. 3 is to provide guidelines for selecting and specifying security
controls for information systems supporting the agency to meet the requirements of
FIPS PUB 200. The security controls described in NIST SP 800-53 Rev. 3 are
organized into 18 families. Each security control family includes security controls
associated with the security functionality of the family. In addition, there are three




                                                  7
CG’s Independent Audit of FHFA’s Information Security Program - 2011


general classes of security controls: management, operational, and technical. 3 The
NIST SP 800-53 Rev. 3 security control families are as follows:

Table 1: Security Control Families
Security Control Family                            Control Class
Access Control                                     Technical
Audit and Accountability                           Technical
Identification and Authentication                  Technical
System and Communications Protection               Technical
Security Assessment and Authorization              Management
Planning                                           Management
Risk Assessment                                    Management
System and Services Acquisition                    Management
Program Management                                 Management
Awareness and Training                             Operational
Configuration Management                           Operational
Contingency Planning                               Operational
Incident Response                                  Operational
Maintenance                                        Operational
Media Protection                                   Operational
Physical and Environmental Protection              Operational
Personnel Security                                 Operational
System and Information Integrity                   Operational




3
  According to NIST SP 800-53 Rev. 3, management controls are the security controls for an information
system that focus on the management of risk and the management of information system security.
Operational controls are the security controls for an information system that are primarily implemented
and executed by people (as opposed to systems). Technical controls are the security controls for an
information system that are primarily implemented and executed by the information system through
mechanisms contained in the hardware, software, or firmware components of the system.




                                                  8
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


NIST Risk Management Framework

FISMA also requires NIST to develop standards and guidelines to be used by agencies
to categorize all information and information systems collected or maintained by or on
behalf of the agency in order to provide appropriate levels of information security
according to a range of risk levels.           FIPS PUB 199, Standards for Security
Categorization of Federal Information and Information Systems, establishes security
categories for information and information systems based on the potential impact on the
agency should certain events occur which threaten the information and information
systems needed by the agency. FISMA defines three security objectives for information
and information systems, which are also incorporated in the OMB Circular A-130,
Appendix III, definition of adequate security:

Confidentiality – A loss of confidentiality is the unauthorized disclosure of information.

Integrity – A loss of integrity is the unauthorized modification or destruction of
information.

Availability – A loss of availability is the disruption of access to or use of information or
an information system.

To assist agencies in improving information security and strengthening risk
management processes, NIST in partnership with the Department of Defense, the
Office of the Director of National Intelligence, and the Committee on National Security
Systems, developed a common information security framework, NIST’s RMF. The
RMF, comprised of the following six steps, provides a structured practice for
incorporating information security and risk management activities into the system
development life cycle:

   ⎯	 Categorize the information system and the information processed, stored, and
      transmitted by that system based on an impact analysis.

   ⎯	 Select an initial set of baseline security controls for the information system based
      on the security categorization; tailoring and supplementing the security control
      baseline as needed based on an organizational assessment of risk and local
      conditions.

   ⎯	 Implement the security controls and describe how the controls are employed
      within the information system and its environment of operation.

   ⎯	 Assess the security controls using appropriate assessment procedures to
      determine the extent to which the controls are implemented correctly, operating
      as intended, and producing the desired outcome with respect to meeting the
      security requirements for the system.




                                                  9
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


   ⎯	 Authorize information system operation based on a determination of the risk to
      organizational operations and assets, individuals, other organizations, and the
      Nation resulting from the operation of the information system and the decision
      that this risk is acceptable.

   ⎯	 Monitor the security controls in the information system on an ongoing basis
      including assessing control effectiveness, documenting changes to the system or
      its environment of operation, conducting security impact analyses of the
      associated changes, and reporting the security state of the system to designated
      organizational officials.

   NIST SP 800-37 Rev. 1, Guide for Applying the Risk Management Framework to
   Federal Information Systems: A Security Life Cycle Approach (NIST SP 800-37 Rev.
   1), provides guidelines for applying the RMF to Federal information systems. This
   framework is detailed in the graphic below:

   Figure 1: NIST Risk Management Framework




FHFA Systems Environment

FHFA defines the FHFA information system as a set of hardware, software,
infrastructure and supporting personnel which work together to provide coordination,
and decision making capabilities to the Agency. FHFA utilizes technology such as
software, applications, and hardware for gathering, storing, processing, and transmitting
information. All FHFA systems are identified as major or minor and categorized as high,
medium, or low security impact based on FIPS PUB 199 standards. FHFA has one




                                                 10
CG’s Independent Audit of FHFA’s Information Security Program - 2011


General Support System (GSS),4 13 major applications, and 21 minor applications.5 All
of the systems are in the production phase of the life cycle except for one minor system
in the development phase.

The major systems are:

Table 2: Major FHFA Systems
    System                                                                  Life Cycle Status
    CRS.Net – Call reporting system                                         Production
    Examiner Workstation (xWorks)                                           Production
    Avue System                                                             Production
    WebTA                                                                   Production
    Information Management System (IMS)                                     Production
    e-OPF                                                                   Production
    FHR Navigator                                                           Production
    FMS – Financial Management System                                       Production
    HSPD-12 PIV                                                             Production
    Managed Trusted Internet Protocol Service (MTIPS)                       Production
    National Finance Center (NFC)                                           Production
    Plateau (LMS)                                                           Production
    USA Staffing                                                            Production

FHFA defines boundaries for its information systems in order to assign protection
resources to it. Agency information systems that are under the FHFA direct
management control are called internal systems. FHFA defines externally hosted
systems as contractor systems, which are not the Office of Technology and Information
Management’s (OTIM’s) responsibility to operate and maintain. For externally hosted
systems, Interagency Security Agreements are in place with other agencies. FHFA


 According to NIST SP 800-18 Rev. 1, Guide to Developing Security Plans for Federal Information
4

Systems, a general support system is interconnected information resources under the same direct
management control, which shares common functionality. A general support system normally includes
hardware, software, information, data, applications, communications, facilities, and people and provides
support for a variety of users and/or applications.
5
  According to NIST SP 800-37 Rev. 1, a major application is an application that requires special attention
to security due to the risk and magnitude of harm resulting from the loss, misuse, or unauthorized access
to or modification of the information in the application. A minor application is an application, other than a
major application, that requires attention to security due to the risk and magnitude of harm resulting from
the loss, misuse, or unauthorized access to or modification of the information in the application. Minor
applications are typically included as part of a general support system.




                                                     11
CG’s Independent Audit of FHFA’s Information Security Program - 2011


subsystems typically fall under the same management authority and are included within
a single system security plan. These systems have the same function or mission
objective and essentially the same operating characteristics and security needs, and
reside in the same general operating environment. FHFA uses system boundaries for
purposes of security accreditation.6

The FHFA GSS provides information sharing and data processing capabilities via
interconnected workstations and servers. It is utilized by FHFA employees and
contractors for network services, e-mail, and connectivity to FHFA’s Intranet, local area
network and the public Internet. FHFA employs a variety of applications (both
commercial off-the-shelf products and custom applications developed in-house) running
on the GSS. The GSS is extended for mobile device users using Exchange Server to
support encrypted mobile devices. FHFA relies on the GSS automated information
resources to accomplish its core business operations and processes. The FHFA GSS
is a closed system, in that only FHFA-owned systems can directly connect to the
network.     It supports major and minor applications processing “sensitive but
unclassified” information.

FHFA Information System Security Program

Organization

FHFA’s information technology (IT) security organization includes the CIO, the Chief
Information Security Officer (CISO), and eight additional staff responsible for training
and awareness, network scanning and monitoring, and certification and accreditation
(C&A) activities including continuous monitoring. The role of the CIO is to act as
primary advisor to the Acting Director and senior FHFA staff on all matters related to
information technology oversight, lead the analysis of technology requirements, and
manage the life cycle of technology at FHFA. The CISO directs the management of
FHFA’s IT security program.

Risk Management

FHFA’s information security program is based on NIST’s RMF and provides FHFA the
capability to manage information system-related security risks in line with the
organization’s mission and business objectives. Overall risk strategy for information
systems is established by the senior leadership to ensure that information security
requirements, including necessary security controls, are integrated into the
organization’s enterprise architecture and system development life cycle processes.
Following is a diagram depicting how FHFA is implementing NIST’s RMF.


6
 According to NIST SP 800-53 Rev. 3, security accreditation is the official management decision given by
a senior agency official to authorize operation of an information system and to explicitly accept the risk to
agency operations (including mission, functions, image, or reputation), agency assets, or individuals,
based on the implementation of an agreed-upon set of security controls.



                                                     12
CG’s Independent Audit of FHFA’s Information Security Program - 2011


Figure 2: FHFA Information Systems Risk Management Framework

                                    Security Life Cycle

                                           CATEGORIZE
                                       Information Systems

                                      FHFA defines criticality/
                                      sensitivity of information
                                      system according to impact
                                      to mission/business.
         MONITOR                                                                SELECT
     Security Controls                                                          Security
                                                                              Requirements
 FHFA continuously tracks
                                             INVENTORY                   FHFA selects baseline
 changes to the information                                              security controls and
 system that. may affect security
                                      of Information Systems
                                                                         applies enhanced controls
 controls and reassesses                                                 based on risk assessment.
 control effectiveness               FHFA utilizes an inventory to
                                     maintain and track the status of
                                     information systems within risk
                                     management process. The
                                     inventory is updated when a
                                     FIPS PUB 199 characterization             IMPLEMENT
       AUTHORIZE                     has been completed for a new                 Controls
   Information System                system, a system is retired, or a
                                     major change to a system              FHFA implements security
  FHFA considers risk to the         triggers the recertification and      controls and applies
  organizational operations          accreditation of the system.          security configuration
                                                                           settings.
  and assets, individuals,
  and other organizations. If
  acceptable, authorizes                      ASSESS
  operation.                              Security Controls

                                      FHFA determines security
                                      control effectiveness (i.e.,
                                      operating as intended,
                                      meeting security
                                      requirements)




FHFA has developed an inventory of information systems that includes systems in
production and development as part of its information systems risk management
framework. The CISO reviews all new IT investments, which allow the OTIM security
team to monitor the development of new systems and changes to existing systems.
Systems must be approved by the CIO to be included in the inventory. The inventory is
updated when a new system is approved, a system that is no longer used is retired, or a
major change to a system triggers the security assessment and authorization of the
system.

Information Security Policies and Procedures

FHFA has documented information security policies and procedures based on the
controls defined by NIST SP 800-53 Rev. 3. The policies and procedures are organized
by and cover each of the NIST SP 800-53 Rev. 3 control families. The information
security policies and procedures are posted on the FHFA Intranet.




                                                              13
CG’s Independent Audit of FHFA’s Information Security Program - 2011


Security Awareness, Training, and Education

FHFA information system users are required to have annual security awareness training
commensurate with their system responsibilities prior to gaining access to Agency
information systems. Initial security awareness training is provided by requiring new
system users to read and acknowledge FHFA’s Rules of Behavior. Annual security
awareness refresher training is provided using the Plateau Learning Management
System, which tracks completion of training by all employees and contractors.

Incident Response

Network incidents are monitored by Managed Trusted Internet Provider. FHFA
employees and contractors are required to immediately report all real or suspected
computer security incidents to the FHFA Help Desk. The incident response team
investigates incidents and reports the incidents to the CISO and CIO. Reporting of
incidents to the United States Computer Emergency Readiness Team (US-CERT) is
based on the category of the incident.7

Configuration Management

FHFA supports two distinct functions within configuration management. The first
function, configuration management, determines the initial configuration of hardware
and software. The other, change management, involves modifying hardware and
software in production. FHFA’s Change Control Board is responsible for the review and
approval/rejection of all production change requests for updates to production
environments. A Change Control Manager is responsible for ensuring system changes
follow the change control process. The configuration management policy and
procedures are used in conjunction with the system development life cycle methodology
which establishes procedures, practices, and guidelines governing the system lifecycle
of information systems within FHFA.

Contingency Planning

Information system owners are required to develop detailed business, communications,
and IT recovery plans and the associated recovery capability for FHFA information
systems. Recovery capability is tested annually. All personnel involved with the
planning efforts are trained in executing the plan and the recovery capability is tested
annually. In addition, a Continuity of Operations Program is developed including a
Business Impact Analysis.




7
  According to NIST SP 800-53 Rev. 3, current Federal policy requires that all Federal agencies (unless
specifically exempted from such requirements) report security incidents to the US-CERT within specified
time frames designated in the US-CERT Concept of Operations for Federal Cyber Security Incident
Handling.


                                                  14
CG’s Independent Audit of FHFA’s Information Security Program - 2011


Security Performance Measurement

Security performance is measured by a monthly POA&M report,8 which tracks open and
closed POA&Ms. The security team discusses open POA&Ms with system owners
each month and a quarterly meeting is held to discuss POA&M status. POA&M status
for contractor systems is reviewed on a quarterly basis.




8
 According to NIST SP 800-53 Rev. 3, a POA&M is a document that identifies tasks needing to be
accomplished. It details resources required to accomplish the elements of the plan, any milestones in
meeting the tasks, and scheduled completion dates for the milestones.


                                                 15
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


Results of Audit

Overview

FISMA requires organizations to develop and implement an organization-wide
information security program to address information security for the information and
information systems that support the operations and assets of the organization,
including those provided or managed by another organization, contractor, or other
source. Key elements of an organization-wide information security program include
documentation of the information security program management controls that serve as
the foundation for the agency’s information security program, documentation of the
security controls designated as common controls9 and identifying the personnel within
the agency responsible for the development, implementation, assessment,
authorization, and monitoring of those controls. The organization-wide information
security program plan combined with the security plans developed for each information
system comprise the security controls employed by the agency in their entirety. A
successful information security program is dependent upon the implementation of both
the agency’s program management controls as well as the implementation of the
security controls for the agency’s information systems.

The Agency’s information system policies and procedures are critical in ensuring the
organization-wide information security program is adhered to. The first security control
in each NIST SP 800-53 Rev. 3 control family specifies the requirement for policies and
procedures. These policies and procedures should provide clear guidance to Agency
personnel as to what their responsibilities are with regard to information system security
requirements.

CG’s audit included performing a review of FHFA’s governance structure related to the
implementation of FHFA’s information security program and a detailed review of the
design for FHFA’s information security policies and procedures to determine whether
the policies and procedures, if properly implemented, would comply with NIST
requirements for each security control family.

Additionally, CG assessed how FHFA has applied NIST’s RMF for managing security of
their information systems, which consists of six steps: 1 - Categorizing, 2 - Selecting, 3
- Implementing, 4 - Assessing, 5 - Authorizing, and 6 - Monitoring (as shown in Figure 1,
page 10).


9
  According to NIST SP 800-53 Rev. 3, a common control is a security control that is inherited by one or
more organizational information systems. Security control inheritance is a situation in which an
information system or application receives protection from security controls (or portions of security
controls) that are developed, implemented, assessed, authorized, and monitored by entities other than
those responsible for the system or application; entities either internal or external to the organization
where the system or application resides.




                                                   16
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


In order to evaluate how extensively FHFA has implemented the RMF, CG performed
testing of selected NIST SP 800-53 Rev. 3 controls that correlate with each of the steps
and tasks defined within the framework. Accordingly, CG tested program level controls
including security categorization, information system inventory, risk assessment,
security planning, security assessment, POA&Ms, and reviewed a judgmental sample of
NIST SP 800-53 Rev. 3 controls related to information security program management.

We found that FHFA generally has a sound RMF for its information security program. In
particular, strengths of the program included training, system-level security planning,
risk assessment, authorization of system connectivity, and continuous monitoring of
security controls. However, information security practices were not fully effective to
preserve the confidentiality, integrity, and availability of FHFA’s information and
information systems, potentially exposing them to unauthorized access, use, disclosure,
disruption, modification, or destruction. CG does not consider the deficiencies noted as
a significant deficiency under FISMA. 10 However, CG concluded collectively that the
deficiencies are significant in the context of the audit objective as defined for
performance audits under GAGAS.

The audit identified FHFA’s security practices that can be improved. Specifically, FHFA
had not:

      ⎯	 Finalized, disseminated, and implemented an organization-wide information
         security program plan.
      ⎯	 Updated the Agency’s information system policies and procedures to completely
         address all of the components within the control families from NIST SP 800-53
         Rev. 3 applicable to the FHFA information system environment.
      ⎯	 Developed, disseminated, and implemented an agency-wide information
         categorization policy and methodology.
      ⎯	 Implemented adequate procedures for tracking and monitoring weaknesses or
         deficiencies through POA&Ms.
      ⎯	 Implemented adequate procedures for tracking and monitoring remediation of
         weaknesses noted from network vulnerability scans.

Addressing these control deficiencies in security practices will strengthen FHFA’s
information security program and contribute to ongoing efforts to achieve reasonable
assurance of adequate security over information resources.

Table four in Appendix II (page 35) of this report summarizes the results of testing
performed of the NIST SP 800-53 Rev. 3 controls selected for evaluation, associated
with the information security program management controls, the RMF steps, and the
related tasks. Our detailed findings are discussed on pages 18-30.


10
     See page 33 in this report for the definition of significant deficiency under FISMA.


                                                        17
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


Finding 1 - FHFA Needs to Document an Agency-Wide Information Security
Program Plan

FHFA has not finalized and disseminated an organization-wide information security program
plan as recommended by the NIST SP 800-53 Rev. 3 and the Federal Housing Finance
Agency Program Management Procedures.

NIST SP 800-53 Rev. 3 control PM-1, Program Management Information Security
Program Plan, states:

   The organization:
   a.	 Develops and disseminates an organization-wide information security program
       plan that:
       ⎯ Provides an overview of the requirements for the security program and a
          description of the security program management controls and common
          controls in place or planned for meeting those requirements;
       ⎯	 Provides sufficient information about the program management controls and
          common controls (including specification of parameters for any assignment
          and selection operations either explicitly or by reference) to enable an
          implementation that is unambiguously compliant with the intent of the plan
          and a determination of the risk to be incurred if the plan is implemented as
          intended;
       ⎯	 Includes roles, responsibilities, management commitment, coordination
          among organizational entities, and compliance;
       ⎯	 Is approved by a senior official with responsibility and accountability for the
          risk being incurred to organizational operations (including mission, functions,
          image, and reputation), organizational assets, individuals, other
          organizations, and the nation;
   b.	 Reviews the organization-wide information security program plan [Assignment:
       organization-defined frequency]; and
   c.	 Revises the plan to address organizational changes and problems identified
       during plan implementation or security control assessments.

The Federal Housing Finance Agency Program Management Procedures documented
in August of 2010 require the CISO to develop an agency-wide information security
program plan. FHFA hired a CISO in February 2011 who has been in the process of
developing and finalizing the plan.

The organization-wide security program plan should address information security for the
information and information systems that support the operations and assets of the
Agency. Without a documented and approved security program plan, there is an
increased risk that FHFA personnel are unaware of the organization-wide information
security controls applicable to the Agency and common security controls applicable to
the Agency’s information systems. Furthermore, communication regarding Agency
personnel’s responsibilities for developing, implementing, assessing, authorizing, and


                                                 18
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


monitoring those controls may be lacking. Hence, security controls may not be
successfully implemented and monitored. This may lead to the lack of effectively
implemented countermeasures to protect FHFA’s information systems. Without
effective security controls in place, the risk is increased that FHFA is unable to protect
its critical information and information systems or data transmitted over the network
from unauthorized access which may allow unauthorized users to read, add, delete or
modify sensitive information.

Recommendation 1: We recommend that FHFA’s CISO finalize the agency-wide
information security program plan in accordance with NIST SP 800-53 Rev. 3
requirements, and disseminate and implement the plan.




                                                 19
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


Finding 2 - FHFA Needs to Update Its Information Security Policies and
Procedures to Address all Applicable NIST SP 800-53 Rev. 3 Components

FHFA information security policies and procedures are documented based on the
controls defined by NIST SP 800-53 Rev. 3. The policies and procedures are organized
by and cover each of the NIST SP 800-53 Rev. 3 control families. However, FHFA’s
information system policies and procedures do not completely address the components
within NIST SP 800-53 Rev. 3 control families applicable to the appropriate tailored set of
baseline controls.
The FHFA information system policies and procedures do not address recommended
components from the following NIST SP 800-53 Rev. 3 control families:

   ⎯ Access Control (AC)
       o AC-2: Account Management
       o AC-19: Access Control for Mobile Devices

   ⎯ Audit and Accountability (AU)

       o AU-6: Audit Review, Analysis, and Reporting

   ⎯ Configuration Management (CM)

       o CM-3: Configuration Change Control
       o CM-8: Information System Component Inventory

   ⎯ Contingency Planning (CP)

       o CP-9: Information System Backup

   ⎯ Incident Response (IR)

       o IR-4: Incident Handling

   ⎯ Physical and Environmental Protection (PE)

       o PE-2: Physical Access Authorizations
       o PE-3: Physical Access Control
       o PE-6: Monitoring Physical Access
       o PE-8: Access Records

   ⎯ Personnel Security (PS)

       o PS-8: Personnel Sanctions

   ⎯ Risk Assessment (RA)

       o RA-5: Vulnerability Scanning

   ⎯ System and Information Integrity (SI)

       o SI-4: Information System Monitoring
       o SI-5: Security Alerts, Advisories, and Directives

                                                 20
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


CG separately communicated the specific controls within each of the NIST control
families noted above that were not completely addressed to FHFA management. Some
of these included:
   ⎯	 Contingency Planning (CP-9: Information System Backup)
      o	 Documenting the frequency of conducting backups of information contained in
         the Agency’s information systems;

   ⎯ Configuration Management (CM-3: Configuration Change Control)

      o	 Documenting the retention requirements of records for configuration-
         controlled system changes

   ⎯ Access Control (AC-2: Account Management)

      o	 Documenting how group, system, and application accounts should be
         managed; and

   ⎯ Incident Response (IR-4: Incident Handling)

      o	 Documenting coordination of incident handling activities with contingency
         planning activities.

NIST SP 800-100, Information Security Handbook: A Guide for Managers, states:

   Information security policy is an essential component of information security
   governance—without the policy, governance has no substance and rules to enforce.
   Information security policy should be based on a combination of appropriate
   legislation, such as FISMA; applicable standards, such as NIST Federal Information
   Processing Standards (FIPS) and guidance; and internal agency requirements.

NIST SP 800-12, An Introduction to Computer Security: A NIST Handbook, Section
5.2.2 Basic Components of Issue-Specific Policy, states:

   Computer security policies should be introduced in a manner that ensures that
   management's unqualified support is clear, especially in environments where
   employees feel inundated with policies, directives, guidelines, and procedures. The
   organization's policy is the vehicle for emphasizing management's commitment to
   computer security and making clear their expectations for employee performance,
   behavior, and accountability.

FHFA developed its information system policies and procedures in 2010 and is in the
process of updating the policies and procedures to ensure the procedures completely
address the components within the control families from NIST SP 800-53 Rev. 3
applicable to the FHFA information system environment based on NIST guidance for
applying the appropriate tailored set of baseline controls. However, these key areas have
not been addressed to date.

The purpose of these policies and procedures is to define the agency-wide information
security program and practices. Without comprehensive information security policies
and procedures, the likelihood is increased that information security may not be
addressed throughout the lifecycle of FHFA’s information systems.          Moreover,



                                                 21
CG’s Independent Audit of FHFA’s Information Security Program - 2011


employees and contractors may be performing tasks without clear direction or training,
potentially increasing risk that the Agency’s information or information systems could be
compromised. The result may be the exposure of FHFA’s systems and information to
unauthorized access, data loss, data manipulation, and system unavailability. In turn,
FHFA could be exposed to financial and reputational risk should a breach of the
confidentiality, integrity, or availability of sensitive information occur.

Recommendation 2: We recommend that FHFA’s CISO complete the update of the
FHFA information system policies and procedures to address all of the applicable
baseline controls within the control families from NIST SP 800-53 Rev. 3.




                                                 22
CG’s Independent Audit of FHFA’s Information Security Program - 2011


Finding 3 - FHFA Needs to Develop an Agency-Wide Information Categorization
Policy and Methodology

FHFA has not developed, disseminated, and implemented an agency-wide information
categorization policy and methodology based on FIPS PUB 199 as recommended by NIST
SP 800-53 Rev. 3. According to FIPS PUB 199, information should be categorized
according to its information type and can be applicable to information in both electronic and
non-electronic form.

NIST SP 800-53 Rev. 3 control RA-2, Risk Assessment Security Categorization, states
the following regarding information categorization:

   The organization:
   a.	 Categorizes information and the information system in accordance with
       applicable Federal laws, Executive Orders, directives, policies, regulations,
       standards, and guidance;
   b.	 Documents the security categorization results (including supporting rationale) in
       the security plan for the information system; and
   c.	 Ensures the security categorization decision is reviewed and approved by the
       authorizing official or authorizing official designated representative.

In addition, FIPS PUB 199 states:

       The security category of an information type can be associated with both user
       information and system information and can be applicable to information in either
       electronic or non-electronic form. It can also be used as input in considering the
       appropriate security category of an information system.

       Establishing an appropriate security category of an information type essentially
       requires determining the potential impact for each security objective associated
       with the particular information type.

Furthermore, NIST SP 800-60 Vol. 1 Rev. 1, Guide for Mapping Types of Information
and Information Systems to Security Categories (NIST SP 800-60 Vol.1 Rev. 1), states:

       FIPS PUB 199 establishes security categories for both information and
       information systems. Information is categorized according to its information type.
       An information type is a specific category of information (e.g., privacy, medical,
       proprietary, financial, investigative, contractor sensitive, security management)
       defined by an organization or, in some instances, by a specific law, Executive
       Order, directive, policy, or regulation.

       Agencies support the categorization process by establishing mission-based
       information types for the organization. The approach to establishing mission-
       based information types at an agency begins by documenting the agency’s
       mission and business areas. In the case of mission-based information, the


                                                 23
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


       responsible individuals, in coordination with management, operational, enterprise
       architecture, and security stakeholders, should compile a comprehensive set of
       the agency’s lines of business and mission areas. In addition, responsible
       individuals should identify the applicable sub-functions necessary to accomplish
       the organization’s mission.

Although FHFA has applied FIPS PUB 199 to the categorization of its information
systems, FHFA is maturing the process of applying FIPS PUB 199 to also include
categorizing FHFA’s information in order to develop an agency-wide information
categorization policy and methodology as described in NIST SP 800-60 Vol. 1 Rev. 1.

An agency-wide information categorization policy and methodology facilitates data
security by identifying and communicating the level of protection in terms of
confidentiality, integrity, and availability required for the Agency’s information. The lack
of an information categorization policy and methodology limits the ability to properly
categorize information systems in order to identify and implement appropriate controls
and may produce inconsistency in how information is handled, potentially exposing
information to theft, compromise or inappropriate use. Ultimately, the lack of an
information categorization policy increases the risk that FHFA could suffer a breach of
sensitive data which may result in personal harm, loss of public trust, legal liability, or
the high costs of handling a breach.

Recommendation 3: We recommend that FHFA’s CIO coordinate with the executive
leadership of the Agency to develop, disseminate, and implement an agency-wide
information categorization policy and methodology.




                                                 24
CG’s Independent Audit of FHFA’s Information Security Program - 2011


Finding 4 - FHFA Needs to Strengthen Tracking and Monitoring of Weaknesses
and Deficiencies in Plan of Action and Milestones

FHFA’s POA&M for information systems did not provide for adequate tracking and
monitoring of weaknesses or deficiencies in security controls noted as a result of
controls assessments during the security and authorization process. The POA&M
identifies tasks to be accomplished, the resources required, milestones in meeting the
tasks, and the scheduled completion dates for the milestones. The POA&M is used by
the Agency to monitor progress in correcting weaknesses. POA&Ms should be updated
on an ongoing basis as part of the continuous monitoring process.

The Federal Housing Finance Agency Plan of Action and Milestones (POA&M) Process
procedures state that system owners/program offices must define scheduled dates of
completion for all weaknesses. From a total population of 41 POA&Ms for the GSS, 13
were not assigned a scheduled date of completion.

POA&Ms that were not assigned a scheduled date of completion included the lack of a
formal information security program plan, a formal Enterprise Architecture document, a
formal Critical Infrastructure Plan, a formal Risk Management Strategy, and a formal
Mission/Business Process Definition. These are all key organization-wide information
security program management controls as defined by NIST SP 800-53 Rev. 3. These
formal documents ensure that security considerations are addressed throughout the
lifecycle of the Agency’s information systems, including protection of the Agency’s
information and critical infrastructure, as well as implementing a risk management
strategy consistently across the Agency.

Additionally, POA&Ms lacking a scheduled date of completion included weaknesses
related to configuration management and remote access controls. If weaknesses in
these two areas remain unaddressed, the risk increases for potential exploitation of
deficiencies or weaknesses resulting in unauthorized disclosure, use, or modification of
FHFA information.

In addition, program offices/system owners did not ensure remedial actions were taken
in a timely manner to mitigate risk to information systems under their purview for the
GSS, HSPD-12, and xWorks systems as required by the FHFA’s Program Management
Procedures. CG reviewed the POA&M reports for these systems and noted a number
of POA&Ms were past due the scheduled date of completion and no further updates
were provided. Table 3 below details the results of the analysis performed.

Table 3: Results of POA&M Analysis
System                Total # of POA&Ms                      # of Past Due POA&Ms
GSS                               41                                    5
HSPD-12                           24                                    1
xWorks                            3                                     1




                                                 25
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


It was unclear whether progress was being made to remediate these weaknesses and
when they were expected to be completed. The longer the timeframe that weaknesses
are not corrected, the greater the risk that the Agency’s information and information
systems could be exploited for unauthorized purposes.

NIST SP 800-53 Rev. 3 control CA-5, Security Assessment and Authorization Plan of
Action and Milestones, states:

   The organization:
   a.	 Develops a plan of action and milestones for the information system to document
       the organization’s planned remedial actions to correct weaknesses or
       deficiencies noted during the assessment of the security controls and to reduce
       or eliminate known vulnerabilities in the system; and
   b.	 Updates existing plan of action and milestones [Assignment: organization-
       defined frequency] based on the findings from security controls assessments,
       security impact analyses, and continuous monitoring activities.

NIST SP 800-53 Rev. 3 control PM-4, Program Management Plan of Action and
Milestones Process, states:

   The organization implements a process for ensuring that plans of action and
   milestones for the security program and the associated organizational information
   systems are maintained and document the remedial information security actions to
   mitigate risk to organizational operations and assets, individuals, other
   organizations, and the Nation.

FHFA Plan of Action and Milestones Process procedures states:

   The scheduled date of completion should be determined based on a realistic
   estimate of the amount of time it will take to allocate the required resources,
   implement the corrective action(s), and complete all associated milestones.

   The scheduled date of completion should include the month, day, and year, and may
   not be changed after the initial POA&M entry; progress toward completion is tracked
   through milestones. If the time to correct the weakness extends beyond the original
   scheduled date of completion, the status of the weakness must be changed to
   ‘delayed,’ and reasons for the delay should be noted in the ‘Weakness Comment’
   field. A revised scheduled date of completion must be recorded in the ‘Changes to
   Milestones’ column and reasons for the change must be noted in the ‘Comments’
   field.

Although FHFA has documented POA&M procedures, management oversight was
lacking to ensure the procedures were followed. When weaknesses are identified, the
related risks and corrective actions should be assessed, tracked and monitored, to
ensure effective remediation in a timely manner. In the interim, the systems remain
susceptible to risks of unauthorized access, viruses, malicious code, and exploitable


                                                 26
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


vulnerabilities.

Recommendation 4: We recommend that FHFA’s CISO develop, disseminate, and
implement a process to monitor compliance with FHFA POA&M procedures.




                                                 27
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


Finding 5 - FHFA Needs to Strengthen Remediation of Vulnerability Assessment
Weaknesses

The weaknesses noted in the June 8, 2011, vulnerability assessment report for the GSS
and the April 21, 2011, vulnerability assessment report for xWorks were not tracked and
monitored for remediation. The vulnerability assessment report noted a high number of
vulnerabilities for the GSS. These weaknesses were due to the absence of patching and
software updates, which indicate significant configuration management issues. In addition,
there were a high number of vulnerabilities noted from the scans for the xWorks system.
The POA&M reports for both the GSS and xWorks systems did not include tracking and
remediation of any vulnerabilities noted from these scans.11

NIST Special Publication (SP) 800-53 Rev. 3 control RA-5, Risk Assessment
Vulnerability Scanning, states:

      The organization:
      a.	 Scans for vulnerabilities in the information system and hosted applications
          [Assignment: organization-defined frequency and/or randomly in accordance with
          organization-defined process] and when new vulnerabilities potentially affecting
          the system/applications are identified and reported;
      b.	 Employs vulnerability scanning tools and techniques that promote interoperability
          among tools and automate parts of the vulnerability management process by
          using standards for:
          ⎯ Enumerating platforms, software flaws, and improper configurations;
          ⎯ Formatting and making transparent, checklists and test procedures; and
          ⎯ Measuring vulnerability impact;
      c.	 Analyzes vulnerability scan reports and results from security control
          assessments;
      d.	 Remediates legitimate vulnerabilities [Assignment: organization-defined
          response times] in accordance with an organizational assessment of risk; and
      e.	 Shares information obtained from the vulnerability scanning process and security
          control assessments with designated personnel throughout the organization to
          help eliminate similar vulnerabilities in other information systems (i.e., systemic
          weaknesses or deficiencies).

NIST SP 800-53 Rev. 3 control CA-5, Security Assessment and Authorization Plan of
Action and Milestones, states:

      The organization:
      a.	 Develops a plan of action and milestones for the information system to document
          the organization’s planned remedial actions to correct weaknesses or
          deficiencies noted during the assessment of the security controls and to reduce
          or eliminate known vulnerabilities in the system; and

11
     The Agency recognized underlying problems with its analysis and reporting of high vulnerabilities.


                                                      28
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


   b.	 Updates existing plan of action and milestones [Assignment: organization-
       defined frequency] based on the findings from security controls assessments,
       security impact analyses, and continuous monitoring activities.

Federal Housing Finance Agency Risk Assessment Procedures states:

   Vulnerability Scanning – Risk Assessment, (RA-5)


   The Senior Information Security Specialist is responsible for conducting and
   analyzing vulnerability scans and coordinating the remediation activities with the
   system engineers in accordance with the following procedure:

       1.	 Scan for vulnerabilities in the information systems and applications at least
           quarterly, whenever new vulnerabilities potentially affecting the
           system/applications are identified and reported, when directed to do so by the
           CISO, or when requested by the SO [System Owner].
       2.	 Conduct vulnerability scans using the approved scanning tool or similar
           scanning tool approved by the CISO.
       3.	 Ensure that the scanning tool is configured with the most current set of plug-
           ins prior to conducting any vulnerability scans. This ensures that the most
           current list of known vulnerabilities is used to evaluate the information
           systems.
       4.	 Maintain detailed records and documentation for vulnerability scans that
           demonstrates the breadth and depth of coverage (i.e., information system
           components scanned and vulnerabilities checked).
       5.	 Ensure that the vulnerability scanning process employs techniques that
           promote interoperability among tools and automates parts of the vulnerability
           management process by using standards for:
           ⎯ Enumerating platforms, software flaws, and improper configurations;
           ⎯ Formatting and making transparent, checklists and test procedures; and
           ⎯ Measuring vulnerability impact
       6.	 Work with the system engineers to remediate legitimate vulnerabilities as
           soon as possible but no longer than 30 days after detection.
       7.	 Share information obtained from the vulnerability scanning process with
           designated personnel throughout the organization to help eliminate similar
           vulnerabilities in other information systems (i.e., systemic weaknesses or
           deficiencies).
       8.	 Prepare detailed and summary Vulnerability Assessment Reports to be
           included as artifacts in the C&A packages.

Although FHFA has documented procedures addressing remediation of weaknesses
observed from vulnerability scans, FHFA management did not place a priority on
monitoring the remediation process to ensure the weaknesses noted from the scans


                                                 29
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


were tracked in the POA&Ms and remediated.

Addressing vulnerabilities in a timely manner limits the opportunity for attackers to
exploit vulnerabilities and gain access to sensitive data or otherwise expose FHFA’s
systems to unauthorized access, data loss, data manipulation, and system
unavailability. The vulnerabilities that were not remediated could lead to total system
compromise.

Recommendation 5: We recommend that FHFA’s CISO establish controls for tracking,
monitoring, and remediating weaknesses noted from the vulnerability scans.




                                                 30
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -



Appendix I – Objective, Scope and Methodology

The objective of this performance audit was to evaluate the effectiveness of FHFA’s
information security program and practices, including FHFA’s compliance with FISMA
and related information security policies, procedures, standards, and guidelines. FISMA
requires organizations to develop and implement an organization-wide information
security program to address information security for the information and information
systems that support the operations and assets of the organization, including those
provided or managed by another organization, contractor, or other source. The FHFA­
OIG’s methodology for the FY 11 FISMA audit was a programmatic review of FHFA’s
governance structure related to the implementation and monitoring of FISMA
requirements, and how FHFA has applied the NIST’s RMF for managing security
throughout the lifecycle of their information systems. The FHFA OIG contracted with
CG to evaluate FHFA’s compliance with FISMA requirements and report on FHFA’s IT
controls over its implementation of the NIST RMF. Based on the approach outlined by
the FHFA-OIG, CG obtained an overview of the FHFA’s Office of the Chief Information
Officer oversight role in the following areas:

   ⎯ Organizational Requirements
   ⎯ Information Security Policies and Procedures
   ⎯ Risk Assessments
   ⎯ System Security Plans
   ⎯ Security Assessment and Authorization
   ⎯ Security Awareness, Training, and Education
   ⎯ Security Incident Reporting
   ⎯ Contingency Planning
   ⎯ System Configuration Management
   ⎯ Plans of Action and Milestones

In addition, CG performed an audit of a selection of internal control activities within each
of the following six phases of NIST’s RMF:

   ⎯ Categorizing information systems
   ⎯ Selecting security controls for information systems
   ⎯ Implementing information system security controls
   ⎯ Assessing information system security controls
   ⎯ Authorizing information systems
   ⎯ Monitoring information system security controls


                                                 31
CG’s Independent Audit of FHFA’s Information Security Program - 2011


Accordingly, CG tested program level controls (including security categorization,
information system inventory, risk assessment, security planning, security assessment,
plan of action and milestones, security authorization, and continuous monitoring) for a
subset of FHFA systems to determine whether FHFA executed the six security program
phases in accordance with the following key standards and guidelines:

   ⎯	 FIPS Publication (PUB) 199, Standards for Security Categorization of Federal
      Information and Information Systems (Security Categorization)
   ⎯	 FIPS PUB 200, Minimum Security Requirements for Federal Information and
      Information Systems (Minimum Security Controls)
   ⎯	 NIST Special Publication (SP) 800-18 Rev. 1, Guide for Developing Security
      Plans for Federal Information Systems (Security Planning)
   ⎯	 NIST SP 800-30, Risk Management Guide for Information Technology Systems
      (Risk Assessment)
   ⎯	 NIST SP 800-37 Rev. 1, Guide for Applying the Risk Management Framework to
      Federal Information Systems: A Security Life Cycle Approach (System Risk
      Management Framework)
   ⎯	 NIST SP 800-39, Managing Information Security Risk Organization, Mission, and
      Information System View (Enterprise-Wide Risk Management)
   ⎯	 NIST SP 800-53 Rev. 3, Recommended Security Controls for Federal
      Information Systems and Organizations (Recommended Security Controls)
   ⎯	 NIST SP 800-53A, Guide for Assessing the Security Controls in Federal
      Information Systems: Building Effective Security Assessment Plans (Security
      Control Assessment)
   ⎯	 NIST SP 800-60 Vol. 1 Rev.1, Volume 1: Guide for Mapping Types of Information
      and Information Systems to Security Categories (Security Category Mapping)

The subset of systems tested included the GSS, xWorks, FHFA’s official record of
supervision activities for the Division of Enterprise Regulation, and HSPD-12, a
contractor system that allows credential bearers to be identified in several standard
ways including by photographic images printed on identification cards as well as by
biometric data (fingerprints), Personal Information Numbers, and other electronic
credentials (digital certificates) stored on the card chip.

In order to implement information system security controls as specified by the RMF,
policies and procedures for each of the eighteen NIST control families are required. CG
performed a detailed review of design for each policy provided and determined whether
the policies and procedures, if properly implemented would comply with NIST
requirements for each security control family as outlined in NIST SP 800-53 Rev. 3.

CG conducted this audit in accordance with GAGAS issued by the Comptroller General
of the United States. Those standards require that audits be planned and performed to


                                                 32
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


obtain sufficient, appropriate evidence to provide a reasonable basis for findings and
conclusions based on the audit objective. CG believes that the evidence obtained
provides a reasonable basis for the finding and conclusions included herein, based on
the audit objective.

To assist in the audit, CG reviewed prior year reports to identify potential risk areas.
The prior year reports CG reviewed include the FHFA’s FY 2010 FISMA evaluation12
and FY 2009 independent audit report on privacy and data protection. 13 CG also
reviewed GAO’s report on opportunities for improving the Federal Housing Finance
Agency's internal controls and accounting procedures,14 GAO’s report on opportunities
for improving information system controls,15 and GAO’s financial audit report for FHFA’s
FY 2009 and FY 2010 financial statements. 16 Additionally, CG reviewed FHFA’s
policies, procedures and records, and conducted interviews of FHFA employees and
contractor personnel.

A significant deficiency under FISMA is a weakness in an agency’s overall information
systems security program or management control structure, or within one or more
information systems, that significantly restricts the capability of the agency to carry out
its mission or compromises the security of its information, information systems,
personnel, or other resources, operations, or assets. In this context, the risk is great
enough that the agency head and outside agencies must be notified and immediate or
near-immediate corrective action must be taken. As required in FISMA (section 3544(c)
(3)), agencies are to report any significant deficiency in policy, procedure, or practice as
a material weakness in reporting under the Federal Managers’ Financial Integrity Act
and if relating to financial management systems, as an instance of a lack of substantial
compliance under the Federal Financial Management Improvement Act.

CG does not consider the deficiencies noted in this report to be a significant deficiency
under FISMA. However, CG concluded collectively that the deficiencies are significant
in context of the audit objective as defined for performance audits under GAGAS.
According to these standards,17 significance is defined as the relative importance of a
matter within the context in which it is being considered, including quantitative and
qualitative factors. Such factors include the magnitude of the matter in relation to the
subject matter, the relevance of the matter, the needs and interests of an objective third
party with knowledge of the relevant information, and the impact of the matter to the



   Federal Housing Finance Agency Fiscal Year 2010 Independent Auditor’s Federal Information Security
12

Management Act (FISMA) Report, FHFA Audit Report No. 10-A-03-0TIM, September 30, 2010
    FY 2009 Independent Audit Report on Privacy and Data Protection, Audit Report No. 09-A-01­
13

OCAO/OTIM,
14
   Management Report: Opportunities for Improvement in the Federal Housing Finance Agency's Internal
Controls and Accounting Procedures, GAO-11-398R, April 29, 2011
   Information Security: Opportunities Exist for the Federal Housing Finance Agency to Improve Controls,
15

GAO-10-528, April 2010
   Financial Audit: Federal Housing Finance Agency’s Fiscal Years 2010 and 2009 Financial Statements,
16

GAO-11-151, November 2010
   Paragraph 7.04, Significance in a Performance Audit, GAO-07-731G (07/07), p. 123.
17




                                                  33
CG’s Independent Audit of FHFA’s Information Security Program - 2011


audited program or activity. Professional judgment assists auditors when evaluating the
significance of matters within the context of the audit objectives.




                                                 34
CG’s Independent Audit of FHFA’s Information Security Program - 2011


Appendix II – Summary of Controls Tested

Table 4: Results of Audit
                                                                              Related NIST SP 800-53 Rev. 3            Results of
                                                                                     Control Tested                      Audit
 Information Security Program                                                                PM-1                   Issue noted. See
                                                                                                                    Recommendation
                                                                               Information Security Program Plan
                                                                                                                    #1

 Information Security Policies and Procedures                                                                       Issue noted. See
                                                                               All NIST SP 800-53 Rev. 3 Controls   Recommendation
                                                                                                                    #2

 NIST Risk Management Framework (RMF):

 RMF Step 1: Categorize Information System

 TASK 1-1: Categorize the information system and document the results of                     RA-2                   Issue noted. See
 the security categorization in the security plan.                                                                  Recommendation
                                                                                    Security Categorization
                                                                                                                    #3

 TASK 1-2: Describe the information system (including system boundary)                      PL-2                    No issues noted.
 and document the description in the security plan.                                  System Security Plan

 TASK 1-3: Register the information system with appropriate organizational                    PM-5                  No issues noted.
 program/management offices.                                                      Information System Inventory

 RMF Step 2: Select Security Controls

 TASK 2-1: Identify the security controls that are provided by the                                                  No issues noted.
 organization as common controls for organizational information systems                     PL-2
 and document the controls in a security plan (or equivalent document).
                                                                                     System Security Plan
 TASK 2-2: Select the security controls for the information system and                                              No issues noted.
 document the controls in the security plan.




                                                                         35
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


                                                                             Related NIST SP 800-53 Rev. 3      Results of
                                                                                    Control Tested                Audit
 TASK 2-3: Develop a strategy for the continuous monitoring of security                    CA-7              No issues noted.
 control effectiveness and any proposed or actual changes to the
                                                                                   Continuous Monitoring
 information system and its environment of operation.

 TASK 2-4: Review and approve the security plan.                                          PL-2               No issues noted.
                                                                                   System Security Plan

 RMF Step 3: Implement Security Controls

 TASK 3-1: Implement the security controls specified in the security plan.                                   No issues noted.
                                                                                          PL-2
 TASK 3-2: Document the security control implementation, as appropriate,                                     No issues noted.
 in the security plan, providing a functional description of the control           System Security Plan
 implementation (including planned inputs, expected behavior, and expected
 outputs).

 RMF Step 4: Assess Security Controls

 TASK 4-1: Develop, review, and approve a plan to assess the security                                        No issues noted.
 controls.

 TASK 4-2: Assess the security controls in accordance with the assessment                                    No issues noted.
 procedures defined in the security assessment plan.
                                                                                            CA-2
 TASK 4-3: Prepare the security assessment report documenting the                                            No issues noted.
 issues, findings, and recommendations from the security control                   Security Assessments
 assessment.

 TASK 4-4: Conduct initial remediation actions on security controls based                                    No issues noted.
 on the findings and recommendations of the security assessment report
 and reassess remediated control(s), as appropriate.




                                                                       36
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


                                                                                  Related NIST SP 800-53 Rev. 3         Results of
                                                                                         Control Tested                   Audit
 RMF Step 5: Authorize Information System

 TASK 5-1: Prepare the plan of action and milestones based on the findings                        CA-5               Issue noted. See
 and recommendations of the security assessment report excluding any                                                 Recommendation
                                                                                     Plan of Action and Milestones
 remediation actions taken.                                                                                          #4.

 TASK 5-2: Assemble the security authorization package and submit the                           CA-6                 No issues noted.
 package to the authorizing official for adjudication.                                  Security Authorization

 TASK 5-3: Determine the risk to organizational operations (including                                                No issues noted.
 mission, functions, image, or reputation), organizational assets, individuals,                  RA-3
 other organizations, or the Nation.
                                                                                           Risk Assessment
 TASK 5-4: Determine if the risk to organizational operations, organizational                                        No issues noted.
 assets, individuals, other organizations, or the Nation is acceptable.

 RMF Step 6: Monitor Security Controls

 TASK 6-1: Determine the security impact of proposed or actual changes to                                            No issues noted.
 the information system and its environment of operation.

 TASK 6-2: Assess a selected subset of the technical, management, and                           CA-7                 No issues noted.
 operational security controls employed within and inherited by the                     Continuous Monitoring
 information system in accordance with the organization-defined monitoring
 strategy.

 TASK 6-3: Conduct remediation actions based on the results of ongoing                          RA-5                 Issue noted. See
 monitoring activities, assessment of risk, and outstanding items in the plan                                        Recommendation
                                                                                        Vulnerability Scanning
 of action and milestones.                                                                                           #5.




                                                                         37
CG’s Independent Audit of FHFA’s Information Security Program - 2011 -


                                                                               Related NIST SP 800-53 Rev. 3      Results of
                                                                                      Control Tested                Audit
 TASK 6-4: Update the security plan, security assessment report, and plan                                      No issues noted.
 of action and milestones based on the results of the continuous monitoring
 process.

 TASK 6-5: Report the security status of the information system (including                                     No issues noted.
 the effectiveness of security controls employed within and inherited by the
 system) to the authorizing official and other appropriate organizational
 officials on an ongoing basis in accordance with the monitoring strategy.
                                                                                             CA-7
 TASK 6-6: Review the reported security status of the information system             Continuous Monitoring     No issues noted.
 (including the effectiveness of security controls employed within and
 inherited by the system) on an ongoing basis in accordance with the
 monitoring strategy to determine whether the risk to organizational
 operations, organizational assets, individuals, other organizations, or the
 Nation remains acceptable.

 TASK 6-7: Implement an information system decommissioning strategy,                                           No issues noted.
 when needed, which executes required actions when a system is removed
 from service.




                                                                         38
APPENDIX B
FHFA’s Comments to FHFA-OIG’s Draft Report




     Federal Housing Finance Agency Office of Inspector General • AUD-2011-002 • September 29, 2011
                                                  vii
Federal Housing Finance Agency Office of Inspector General • AUD-2011-002 • September 29, 2011
                                             viii
Federal Housing Finance Agency Office of Inspector General • AUD-2011-002 • September 29, 2011
                                              ix
Federal Housing Finance Agency Office of Inspector General • AUD-2011-002 • September 29, 2011
                                              x
Federal Housing Finance Agency Office of Inspector General • AUD-2011-002 • September 29, 2011
                                              xi
APPENDIX C
FHFA-OIG’s Response to FHFA’s Comments

On September 19, 2011, FHFA provided a response (Appendix B) to the draft of this report.
FHFA concurred with all recommendations made and described actions it plans to take or has
taken to address the issues identified in the report (Appendix A). Based on FHFA’s response,
FHFA-OIG considers the proposed actions sufficient to resolve the recommendations. However,
the recommendations will remain open until such time as FHFA-OIG determines that agreed
upon corrective actions are completed and responsive. See Appendix D of this report for a
summary of management’s comments on the recommendations.

In response to recommendation five, FHFA expressed concern about the output of the
vulnerability scanning product in use, noting that the raw scanning data would not necessarily be
indicative of system security vulnerabilities until it had been further evaluated by security
analysts. In this regard, FHFA is taking action to enhance its analysis of vulnerabilities as stated
in its response. FHFA-OIG agrees that not all of the numerous potential vulnerabilities
identified by the scanning product would require remediation and that analysis of the raw data is
an important part of the remediation process. FHFA agreed that the vulnerability management
assessment program requires enhancements, which will improve analysis techniques and
reporting. Accordingly, FHFA stated it will incorporate enhancements to the vulnerability
program intended to improve the ability to analyze, monitor, and track vulnerabilities by
February 29, 2012.




      Federal Housing Finance Agency Office of Inspector General • AUD-2011-002 • September 29, 2011
                                                   xii
APPENDIX D
Summary of Management’s Comments on the Recommendations

This table presents the management response to the recommendations in FHFA-OIG’s report and
the status of the recommendations as of the date of report issuance.

                                                   Expected
                Corrective Action: Taken or       Completion       Monetary      Resolved:a Yes     Open or
Rec. No.                   Planned                   Date          Benefits          or No          Closedb
   1.         A FHFA IT Security Information       10/31/2011        $0               Yes            Open
              Security Program Plan has been
              completed and is currently being
              reviewed by management.
    2.        FHFA is currently conducting its     02/02/2012          $0              Yes            Open
              annual review of IT security
              policies and procedures, and as
              necessary will incorporate FHFA-
              OIG’s findings into the annual
              review and update of the policies
              and procedures.
    3.        FHFA—in coordination with all        09/28/2012          $0              Yes            Open
              divisions and offices—will
              develop an agency-wide
              information classification policy.
    4.        FHFA will strengthen the             03/30/2012          $0              Yes            Open
              POA&M monitoring process and
              will provide additional POA&M
              training to system owners
              responsible for assigning
              resources and scheduling actions
              to remediate vulnerabilities.
    5.        FHFA is incorporating                02/29/2012          $0              Yes            Open
              enhancements to the vulnerability
              management program, which will
              improve their ability to analyze,
              monitor, and track vulnerabilities.

a
 Resolved means – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
corrective action is consistent with the recommendation; (2) Management does not concur with the recommendation,
but alternative action meets the intent of the recommendation; or (3) Management agrees to the FHFA-OIG
monetary benefits, a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
management provides an amount.
b
  Once the FHFA-OIG determines that the agreed-upon corrective actions have been completed and are responsive
to the recommendations, the recommendations can be closed.




         Federal Housing Finance Agency Office of Inspector General • AUD-2011-002 • September 29, 2011
                                                      xiii
ADDITIONAL INFORMATION AND COPIES


For additional copies of this report:

       •   Call the Office of Inspector General (OIG) at: 202-408-2544

       •   Fax your request to: 202-445-2075

       •   Visit the OIG website at: www.fhfaoig.gov



To report alleged fraud, waste, abuse, mismanagement, or any other kind of criminal or
noncriminal misconduct relative to FHFA’s programs or operations:

       •   Call our Hotline at: 1-800-793-7724

       •   Fax us the complaint directly to: 202-445-2075

       •   E-mail us at: oighotline@fhfa.gov

       •   Write to us at: FHFA Office of Inspector General
                           Attn: Office of Investigation – Hotline
                           1625 Eye Street, NW
                           Washington, DC 20006-4001




      Federal Housing Finance Agency Office of Inspector General • AUD-2011-002 • September 29, 2011
                                                   xiv
